                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A13110089                                                                        Page 1 of 1



                 We assessed a series of allegations against different NSF -supported1 and other
         researchers, each related to research work in the same area, with each allegation predicated on the
         theft of intellectual property by the researchers through the lack of appropriate attribution to
         claimed sources of the intellectual property.

                  The publications listed in the allegation do not make specific claims of priority in these
         ideas. Furthermore, the ideas overlap with general themes that are common in the research
         literature. Under the circumstances, we do not find the claimed lack of attribution to amount to
         intellectual theft or research misconduct.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
